 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




RYAN WHITE EVALUATION SYSTEMS

  Title I: Grants to Metropolitan Areas




                    JUNE GIBBS BROWN
                     Inspector General

                        AUGUST 1999
                       OEI-05-98-00392
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago Regional Office prepared this report under the direction of William Moran,
Regional Inspector General. Principal OEI staff included:

REGION                                                  HEADQUARTERS

William Moran, Project Leader
                          Elise Stein, Program Specialist
Ann Maxwell, Lead Analyst
                              Rada Spencer, Program Specialist
Victoria Jacobs, Analyst
                               Alan Levine, Program Specialist
Nora Leibowitz, Analyst

Vince Greiber, New York Regional Office





       To obtain copies of this report, please call the Chicago Regional Office at (312) 353-9867.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                         EXECUTIVE                       SUMMARY


PURPOSE

          To examine the evaluation systems used by Title I Ryan White grantees to monitor the
          compliance, measure the outcomes and measure the overall effectiveness of the programs
          they fund.


BACKGROUND

          In 1990, Congress passed the Ryan White Comprehensive AIDS Resources Emergency

          (CARE) Act as a comprehensive response to the HIV epidemic and its impact on

          individuals, families, communities, cities and States. The Ryan White CARE Act was re-

          authorized in fiscal year (FY) 1996 through FY 2000. Title I of the Act provides

          emergency relief grants to eligible metropolitan areas (EMAs) disproportionately affected

          by the epidemic to provide community-based HIV-related health and support services. In

          FY 1999, 51 EMAs in 21 States, Puerto Rico and the District of Columbia received $486

          million in Title I formula and supplemental funds.


          The Ryan White CARE Act will be considered for its second re-authorization in 2000. 

          As Congress debates this re-authorization, questions are certain to be asked about the

          effectiveness and impact of the programs funded. This inspection examines the capacity of

          Title I Ryan White grantees to answer those questions.


          We conducted an examination of the evaluation mechanisms used by 12 EMAs through an

          extensive documentation review and on-site interviews. The 12 EMAs visited represent

          the majority of Ryan White Title I funds and nearly half of HIV/AIDS cases. 



FINDINGS

Title I Grantees Have Mechanisms in Place to Adequately Monitor Their
Sub-grantees’ Activities

          The 12 Title I grantees we visited receive frequent program and fiscal reports from their
          sub-grantees, regularly review their financial audits and conduct routine site visits. A
          majority of the grantees are tightening fiscal control through unit cost and fee-for-service
          contracting and tightening programmatic control through EMA-wide databases and the
          collection of client-level data. Ensuring sub-grantees use Ryan White funds as the payor
          of last resort is one area where further monitoring mechanisms may be necessary.

Ryan White Evaluation Systems: Title I              1                                      OEI-05-98-00392
Few Grantees Currently Require Outcome Measurement of Their Sub-grantees;
Most Are in the Planning Stage of Outcome Measurement

          Currently, only 2 of the 12 grantees visited require sub-grantees to measure client
          outcomes. The other 10 Title I grantees visited are in various stages of preparing to
          require sub-grantees to collect and report outcome measures in the next few years. The
          majority of sample Title I grantees have concerns regarding outcome measures and desire
          more specific guidance from the Health Resources and Services Administration (HRSA)
          on how to proceed.

The Majority of Title I Grantees Visited Assess the Needs of Sub-populations in
HIV/AIDS Care but Do Not Solicit Needs Information from Those Outside of
HIV/AIDS Care

          In addition to analysis of public health data, information on client needs is often collected
          through provider and consumer surveys, focus groups and public forums. These
          mechanisms focus on populations currently in HIV/AIDS care. To detect the needs of
          those not in HIV/AIDS care, the majority of the Title I grantees visited match the
          demographics of HIV/AIDS cases to the demographic data of the clients receiving Title I
          funded services in their eligible metropolitan area (EMA). Matches of epidemiological
          and utilization data do not provide a complete picture of the needs of persons not in
          HIV/AIDS care. The matches do not provide information on the barriers individuals face
          to care or their unique service needs.

RECOMMENDATIONS

The HRSA Should Promote the Development of Metropolitan-wide Data Systems
to Further Improve the Program Management Activities of the Sub-grantees

          The HRSA should provide grantees with technical assistance on how to develop
          EMA-wide data systems through which the grantees and sub-grantees can access
          client-level data. Sub-grantee access to client-level data eliminates inefficient intake
          duplication and facilitates service coordination. Data systems capacity is a vital ingredient
          for HIV/AIDS service agencies to improve the efficiency and effectiveness with which
          they provide their services, track their outcomes and inform their fund sources of their
          activities and results. There are several potential sources of funds which could be used to
          assist grantees in building client-level data systems.

The HRSA Should Implement a Multi-year Outcomes Initiative Including Grantee
Requirements and Technical Assistance

          The HRSA should build upon their efforts to promote grantee outcome measurement by
          establishing a multi-year implementation plan. Outcome measurement should start on the


Ryan White Evaluation Systems: Title I              2                                      OEI-05-98-00392
          sub-grantee level and lead through subsequent steps to grantee analysis of client outcomes
          across the EMA. Outcome measurement would foster program improvements and greater
          accountability for expenditures and highlight the value of Ryan White funds.

The HRSA Should Provide Technical Assistance to Improve the Ability of
Grantees to Estimate the Needs of Infected Persons Not in HIV/AIDS Care

          The HRSA currently requires grantees to estimate unmet need of persons not in
          HIV/AIDS care by comparing service utilization data to the HIV epidemic in their area.
          The HRSA should require the grantees to improve their knowledge of unmet need by
          soliciting information directly from persons not in HIV/AIDS care. The input of infected
          persons who are not receiving care would add a richness of understanding regarding their
          needs and the barriers to service they encounter.

          Grantee solicitation of the input of persons un-connected to care would assist the grantees
          in complying with the re-authorized CARE Act’s directive to prioritize a portion of funds
          for emerging populations. Grantee solicitation of this input would also contribute to the
          Department’s efforts to address the greater burden of HIV/AIDS on racial and ethnic
          minorities.

          Several grantees indicated a need for technical assistance on using outreach strategies to
          solicit information from persons not in HIV/AIDS care. The HRSA could provide the
          grantees with a technical assistance document detailing how to use outreach strategies
          with examples of effective strategies for replication. Particular attention should also be
          paid to reaching persons who receive HIV/AIDS services but may not be receiving
          primary health care services.


AGENCY COMMENTS

          The HRSA provided comments to the draft report. While HRSA concurred with the
          report’s findings and recommendations, they offered suggestions for clarifying the report
          and making other technical changes. Where appropriate, we changed the report to reflect
          their comments. The complete text of HRSA’s comments can be found in Appendix A.

          The HRSA pointed out several ongoing and planned activities in response to the report
          recommendation to promote the development of metropolitan-wide data systems. We
          commend their efforts in this area. The HRSA cautioned, however, that they do not have
          the financial resources to enable grantees to fully develop and implement these systems.

          We recommend that HRSA, in partnership with the Department, secure funds to assist in
          the development of such data systems. The FY 2000 re-authorization of the CARE Act


Ryan White Evaluation Systems: Title I             3                                      OEI-05-98-00392
          provides an optimal opportunity to consider funding for infrastructure development vital
          to ensuring efficient and effective service delivery in the future. The grantees could build
          upon an initial infusion of funds to streamline their systems, potentially reducing their
          administrative costs and freeing up funds to maintain their systems over time.

          We agree with HRSA that the participation of non-Ryan White public health agencies is
          necessary to provide additional resources, skills and data to develop client-level data
          systems which capture the full array of services used by HIV-infected persons. To this
          end, we recommend that HRSA build upon the HRSA-Health Care Financing
          Administration (HCFA)- Centers for Disease Control and Prevention (CDC) inter-agency
          data sharing agreement to promote the development of integrated public health data
          systems.

          The HRSA briefly described a few activities planned or underway in support of our
          recommendation to implement a multi-year outcomes initiative. We commend HRSA on
          these activities and plans. Despite their efforts in this area, HRSA expressed a few
          concerns regarding their ability to carry out this recommendation: 1) data limitations,
          2) funding limitations, and 3) confidentiality concerns.

          We do not expect the outcomes initiative to lead to rigorous scientific evaluations
          conducted by every grantee. By examining the client-level impact of the services they
          fund, the grantees can assess in general terms the effectiveness of these services.

          Although we expect the costs involved to be minimized by emphasizing the use of data
          resources already available to the providers, many grantees may need additional financial
          resources to develop an outcomes system. The metropolitan-wide client-level data
          systems discussed in our first recommendation would develop a sound infrastructure upon
          which to build the outcome measures initiative. We recommend that HRSA work with the
          Department to secure funds for these initiatives critical to the future of the Ryan White
          CARE Act programs.

          The HRSA’s third area of concern - assuring client confidentiality, can be addressed by
          using unique identifiers and staff confidentiality agreements.




Ryan White Evaluation Systems: Title I              4                                      OEI-05-98-00392
                       TABLE                        OF               CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS

      Adequate Monitoring Mechanisms in Place . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Few Require Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Solicit Information on Needs from Clients, Not Others . . . . . . . . . . . . . . . . . . . . . . . . . 14


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


APPENDICES

    A: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


          B: Related Office of Inspector General Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31





Ryan White Evaluation Systems: Title I                          5                                                 OEI-05-98-00392
                                         INTRODUCTION


PURPOSE

          To examine the evaluation systems used by Title I Ryan White grantees to monitor the
          compliance, measure the outcomes and measure the overall effectiveness of the programs
          they fund.


BACKGROUND

          This study complements our reports, Ryan White Evaluation Systems, Title II: Grants to
          States (OEI-05-98-00393) and Ryan White Evaluation Systems, AIDS Drug Assistance
          Program (OEI-05-98-00390).

The Ryan White CARE Act

          In 1990, Congress passed the Ryan White Comprehensive AIDS Resources Emergency
          (CARE) Act as a response to the HIV epidemic and its impact on individuals, families,
          communities, cities and States. The Ryan White programs provide health and support
          services to persons with HIV/AIDS who would otherwise not have access to care. The
          Ryan White programs constitute slightly over $1 billion of the $6.8 billion in HIV/AIDS
          expenditures in the U.S. Department of Health and Human Services fiscal year (FY) 1998
          budget.

          The Ryan White CARE Act was re-authorized in FY 1996 through FY 2000. Changes to
          the Act included a directive to Title I planning councils to consider cost and outcomes in
          funding allocation decisions to the extent that such data are reasonably available.

          The Ryan White CARE Act's four titles and Part F direct resources to various entities and
          allow grantees maximum flexibility in the use of funds. In FY 1998, nearly 90 percent of
          the Act’s funds were awarded to Title I and Title II grantees.

Title I of the Ryan White CARE Act

          Title I provides emergency relief grants to eligible metropolitan areas (EMAs)
          disproportionately affected by the HIV epidemic. Title I grants are for community-based
          HIV-related outpatient and ambulatory health and support services, including case
          management, comprehensive treatment services, prescription drugs, counseling,
          transportation, meals-on-wheels programs, home care and hospice care.


Ryan White Evaluation Systems: Title I             6                                    OEI-05-98-00392
          Grantees are required to establish a planning council that reflects the demographics of the
          epidemic in the EMA and is representative of the range of individuals involved in HIV
          care including health and social service providers, government entities, planning agencies,
          community leaders and other Federal HIV program grantees. The planning council
          develops a comprehensive plan for delivering HIV services in the EMA, prioritizes the
          allocation of funds in the EMA, assesses the grantee’s fund allocation mechanisms and
          evaluates the effectiveness of services in meeting identified need.

          Metropolitan areas are eligible for Title I formula funding if they have a population of
          500,000 or more and have a total of more than 2,000 cases of AIDS reported to the U.S.
          Center for Disease Control (CDC) for the most recent period of 5 calendar years. In FY
          1999, there were 51 EMAs in 21 States, Puerto Rico and the District of Columbia. In FY
          1999, EMAs received $486 million in Title I formula and supplemental funds.

OIG Evaluation Recommendations in 1995

          In a June 1995 Office of Inspector General (OIG) report entitled “The Ryan White CARE
          Act: Local Implementation Issues”(OEI-05-93-00336), the OIG found an absence of
          program outcome evaluation to measure the CARE Act’s impact. Beyond surveys of
          client satisfaction undertaken by providers at the local level, grantees and planning
          councils were not assessing the impact of CARE Act funds on their service area.

          The OIG recommended that the Health Resources and Services Administration (HRSA)
          and the Assistant Secretary for Planning and Evaluation (ASPE) fund appropriate studies
          to assess the overall effectiveness of the Ryan White programs. The OIG also
          recommended that HRSA ensure grantees evaluate their own programs. The OIG
          suggested local evaluations include provider compliance reviews, outcome measure
          studies and overall program effectiveness reviews. The OIG asked HRSA to provide
          grantees with technical assistance and evaluation instruments that guarantee consistency in
          data collection and evaluation.

          The ASPE did not conduct any evaluations of the Ryan White program with HRSA as
          recommended in the 1995 OIG report. However, ASPE is currently funding the HIV
          Costs and Services Utilization Study (HCSUS) with HRSA and the Agency for Health
          Care Policy and Research (AHCPR). The HCSUS examines who is treated for HIV, the
          health services HIV patients receive, the costs of the services and means of payment. The
          ASPE and AHCPR are also sponsoring a related study on the impact of health care
          financing arrangements on access to and use of new and emerging HIV therapies.

          The HIV/AIDS Bureau of HRSA has a national Ryan White evaluation agenda which
          includes client-level data studies, links with secondary data sets, topic specific evaluations
          and the aggregate reporting system. The Bureau is focusing on evaluating the following
          areas: 1) Enrolling under-served, vulnerable populations; 2) Providing clients with care
          equal to that received by the insured; 3) Providing services that remove barriers to

Ryan White Evaluation Systems: Title I              7                                       OEI-05-98-00392
          receiving primary care; 4) Reducing morbidity, including opportunistic infections and
          perinatal transmission, and maintaining or increasing CD4 levels; 5) Reducing mortality;
          and 6) Adapting to a changing service and cost environment.

HRSA’s Current Evaluation Requirements

          The FY 1997 and 1998 Grant Application Guidances asked grantees to specify outcomes
          for four service categories, including primary medical care. The FY 1999 Guidance asks
          grantees to describe their processes and results in developing outcomes. Grantees are also
          instructed to describe the impact of Title I funds. Suggested outcomes to use include:
          providing access to care whose quality meets or exceeds Public Health Service and other
          standards, removal of barriers to care, and morbidity reductions.

          Title I grantees are required to conduct a needs assessment of HIV-infected populations in
          their service area and describe its use in funding decisions. The FY 1998 Application
          Guidance instructed applicants for supplemental funds to estimate unmet need for: persons
          with HIV by level of illness or transmission category, race/ethnicity, and sex; or enhanced
          primary care access. Applicants were also instructed to estimate the number of persons
          with HIV without access to new treatments and/or requisite primary health care.

          The FY 1999 Application Guidance asks the grantees for more information on unmet need
          to be obtained through comparisons of HIV prevalence and service utilization data. The
          Guidance emphasizes the importance of documenting unmet need and indicates future
          HRSA plans to work with the EMAs in this endeavor.

HRSA’s Technical Assistance on Evaluation

          The HRSA has provided technical assistance to Title I grantees on conducting evaluations
          through a variety of means including: self assessment protocols, meetings to share
          evaluation strategies, and a series of monograph reports on evaluation and assessment.
          The most recent report emphasizes the importance of outcome measurement and provides
          some guidance to grantees on how to approach it. The report does not suggest outcomes
          to measure or steps to develop outcome measures. More recently HRSA has suggested
          grantees focus on primary health care outcomes and will soon disseminate a publication
          focusing on primary health care outcome measures.

Re-authorization in 2000

          The Ryan White CARE Act will be considered for its second re-authorization in 2000. 

          As Congress debates this re-authorization, questions are certain to be asked about the

          effectiveness and impact of the programs funded. This inspection examines the capacity of

          Title I Ryan White grantees to answer those questions.




Ryan White Evaluation Systems: Title I             8                                     OEI-05-98-00392
SCOPE AND METHODOLOGY

          In this inspection we examined: the mechanisms Title I grantees use to monitor sub-
          grantee program and financial compliance, whether and how the grantees measure the
          outcomes of the programs they fund, and whether and how the grantees measure their
          effectiveness in meeting the evolving needs of the affected population. This evaluation
          does not judge the compliance, measure the outcomes or assess the effectiveness of the
          Title I grantees, but rather judges whether Title I grantees have and appropriately utilize
          the tools to perform these evaluation functions. We also did not review HRSA’s
          evaluation of the grantees.

          For the purposes of this analysis, we define compliance as serving the population,
          providing the services and spending the resources as agreed to in return for the award of
          program funds. Outcomes are defined as measures of the benefits clients derived as a
          result of the program. Finally, we define overall effectiveness as how well the mix of
          services meets the evolving needs of the population affected by the epidemic.

          We conducted an on-site examination of these evaluation mechanisms in 12 EMAs: New
          York City, Newark, Bergen-Passaic, Baltimore, Washington D.C., Miami, Orlando,
          Austin, Houston, Chicago, Los Angeles and Sacramento. We selected these EMAs as a
          purposive sample representative of: comparatively high rates of incidence through
          intravenous drug use (IDU) transmission, comparatively high rates of infections among
          minority populations, early and recent EMA designation and regional diversity. In
          addition, our selected EMAs represent the majority of Ryan White Title I funds and nearly
          half of the HIV/AIDS cases. These 12 EMAs contain 38 percent of the living AIDS cases
          reported in 1997 and 51 percent of the Title I funding for FY 1998.

          We conducted an extensive documentation review in the 12 EMAs. We examined their
          FY 1998 Title I grant applications, the contracts of the sample sub-grantees, samples of all
          program, fiscal, outcome and needs assessment reports, site visit protocols and additional
          evaluation materials provided by grantees, planning councils and sub-grantees.

          We supplemented the documentation review with on-site interviews. In each EMA we
          interviewed; (1) the Title I grantee, (2) a representative of the Title I planning council, and
          (3) at least 10 percent of the Title I sub-grantees. The number of sub-grantees visited in
          each EMA ranged from 3 to 14. In each EMA we interviewed sub-grantees of differing
          program size, service delivery purpose and location.

          All of our data collection was conducted from October through December 1998.

          We conducted our review in accordance with the Quality Standards for Inspections issued
          by the President’s Council on Integrity and Efficiency.



Ryan White Evaluation Systems: Title I               9                                      OEI-05-98-00392
                                         FINDINGS

Title I grantees have mechanisms in place to adequately
monitor their sub-grantees’ activities
Grantees receive regular program and fiscal reports and conduct routine site
visits

          Ten of the 12 Title I grantees visited require their sub-grantees to submit monthly
          program and fiscal reports. The other two Title I grantees require quarterly reports.
          Program reports typically contain units of service provided, number and demographics of
          clients served and a narrative section on program accomplishments and barriers. Fiscal
          reports typically contain line item expenditures or detailed billing invoices for unit cost and
          fee-for-service reimbursement. Most grantees also require fiscal reports to disclose year-
          to-date expenditures and the unexpended balance. All of the grantees visited report that
          they review annual fiscal audits from their sub-grantees.

          Nine of the 12 sample grantees conduct formal site visits to all of their sub-grantees at
          least once a year. The Baltimore grantee visits each sub-grantee every 2 years. The Los
          Angeles and Austin grantees use a risk assessment model to determine which sub-grantees
          to visit. In all of the sample EMAs, site visits to sub-grantees include review of a sample
          of client files, financial records and the supporting documentation used for reporting.
          Many of the grantees also informally monitor sub-grantees through ongoing
          communication and individualized technical assistance.

Grantees move toward unit cost reimbursement to tighten fiscal accountability

          Seven of the 12 grantees we visited reimburse the sub-grantees using a unit cost or fee-
          for-service method for all or some of their service categories. One additional grantee is
          planning to use the unit cost method in FY 1999. The other three grantees reimburse their
          sub-grantees on a line item basis.

          The grantees we visited use unit cost reimbursement to tighten their control over costs, to
          inform their resource allocation, to encourage sub-grantee efficiency and to measure sub-
          grantee performance. For example, in Newark the sub-grantees propose a unit cost for
          each service in their grant application. The proposed cost is considered in procurement
          decisions and is subject to contract negotiations. According to a respondent, this helps the
          grantee to be an “informed purchaser” of services and has led to lower service costs.




Ryan White Evaluation Systems: Title I              10                                      OEI-05-98-00392
Many grantees use metropolitan-wide databases and client-level data for program
management

          Nine of the 12 grantees we visited use or are implementing an EMA-wide database,
          through which all of the sub-grantees enter client level data on a uniform system. In seven
          of the eligible metropolitan areas, the grantee can access the agency data at any time
          directly from the system, rather than via down-loads or a contract administrator. In six of
          the EMAs, the sub-grantees have access to one another’s data. An agency can look up a
          client’s identification number and learn what services the client has received elsewhere.
          This enables the agencies to track clients through the Title I system of care, improving
          client management and reducing service duplication.

          In the EMAs we visited, we noted three implementation concerns regarding unified data
          systems. A few respondents reported that it has been difficult to include hospitals in the
          establishment of a common system since hospitals have distinct computer system needs. A
          second concern expressed by respondents is the data delay caused by a shortage of
          computer terminals. Many agencies with only one computer terminal linked to the EMA
          system enter data in weekly or monthly batches. Delays in data entry curtail the benefits
          of agency to agency client management. A third concern is that where EMA data systems
          are incompatible with Title II systems or reporting requirements, agencies funded by both
          Title I and Title II programs may have to collect and report data through dual systems.


  Client Management in Newark: The Comprehensive HIV/AIDS Management Program System
  (CHAMPS):

  Newark Title I sub-grantees use CHAMPS to track client care, to manage administrative
  functions, to report program and fiscal data to the grantee and to aggregate client outcomes.
  Through the CHAMPS database all sub-grantees and the grantee can access client-level data
  at any time. Information is entered through a unique client identification number. Sub-
  grantees can view a client’s demographic and health profile and review what services the client
  has received through other sub-grantees. Multiple fields of information are available for each
  client, including CD4 & T-cell count, usual source of primary care, and referred services. The
  planning council uses CHAMPS to facilitate its needs assessment and planning work. For
  example, the council has used CHAMPS data to review client residency, service location, and
  the peak months and hours of service utilization to forecast service use.


Grantees try to ensure that Ryan White funds are used as the payor of last resort;
Most sub-grantees ensure payor of last resort status

          All of the grantees convey HRSA’s rules regarding payor of last resort status to the sub-
          grantees in their contracts and/or policy and procedure manuals. Some grantees require


Ryan White Evaluation Systems: Title I            11                                     OEI-05-98-00392
          sub-grantees to report all sources of revenue to verify the use of Ryan White funds as the
          payor of last resort. In addition, all of the grantees we visited check that sub-grantees are
          documenting Ryan White eligibility in client files during site visits.

          Most of the sub-grantees we visited have mechanisms in place to ensure that they use
          Ryan White funds as the payor of last resort, such as documenting Medicaid and private
          insurance coverage in client files and billing accordingly. However, a few of the ancillary
          service providers we visited appeared unaware of the rules or their responsibility in this
          area. A few also appeared to be unclear on the services paid for by Medicaid in their
          State. In addition, sub-grantees have varying capacity to check Medicaid eligibility.

Few grantees currently require outcome measurement of
sub-grantees; most are in the planning stage of outcome
measurement
Only 2 of the 12 grantees visited require sub-grantees to measure outcomes

          The Newark and Sacramento Title I grantees require sub-grantees to measure the
          outcomes of the services they are contracted to provide. However, sub-grantee interviews
          in these EMAs indicate that some sub-grantees do not routinely measure outcomes. The
          Newark and Sacramento grantees are taking steps to increase sub-grantee outcome
          measurement through greater standardization and increased reporting requirements.

          Starting in FY 1998, the Sacramento grantee required sub-grantees to report outcome
          measures on a quarterly basis. Due to a low level of sub-grantee compliance in the initial
          6 months, the grantee developed a standard format for outcome reporting. As of FY
          1999, outcome measures are a required component of the sub-grantee quarterly report.

          The Newark grantee requires all sub-grantees to outline expected outcomes and their
          means to measure the outcomes in a logic model in their annual grant proposal. The sub-
          grantees are required to include the following elements in their logic model: 1) service
          gaps and consumer needs, 2) activities to address the needs, 3) outcomes defined as short-
          term consumer benefits, 4) measures to quantify the outcomes, and 5) expected long-term
          impacts on the system or community. The logic model is subject to contract negotiations.

          Sub-grantees are not currently required to report outcome measures to the Newark
          grantee. However, the grantee requires the sub-grantees to measure the outcomes in their
          logic model and to conduct an internal evaluation documenting their progress. On site
          visits the grantee reviews the sub-grantees’ internal evaluation reports. Sub-grantee
          outcome measurement, documentation and achievement is scored and used as criteria in
          determining annual contract awards to continuing applicants.



Ryan White Evaluation Systems: Title I             12                                      OEI-05-98-00392
The other 10 Title I grantees visited are preparing to require sub-grantees to
collect outcome measures in the next few years

          The remaining 10 grantees visited reported plans to require sub-grantees to measure client
          outcomes, however the grantees are at varying levels of planning and implementation. Six
          of the 10 grantees are currently developing outcome measures, half of them are using a
          consultant to draft suggested outcomes. The other four grantees are laying the
          groundwork for outcomes by developing standards of care and data collection
          mechanisms. Seven of the 10 grantees expect to require some or all providers to report
          outcomes by FY 2000.

          Most of the planning councils in the 12 sample eligible metropolitan areas (EMAs) are
          involved in the outcome measure efforts underway in their EMA. In six of the EMAs, the
          councils are involved in the actual determination of the outcome measures. In other
          EMAs, council involvement includes activities such as establishing broad outcome areas,
          participating in the development of service standards and reviewing suggested outcomes.

          Most of the grantees solicited sub-grantee input in developing outcomes. A few of the
          grantees cited the United Way’s manual on outcome measurement as the primary source
          of guidance they have relied upon to direct their efforts in this area. The United Way
          approach emphasizes developing outcomes reflective of an agency’s goals and
          recommends using the data sources readily available to agencies, such as client records,
          client and staff interviews and mechanical tests and measurements.

          Many of the sub-grantees we visited collect client information which could be used to
          measure program outcomes if aggregated. Sub-grantees often document client progress in
          a client’s chart or case-notes. Most of the sub-grantees we visited do not aggregate the
          client outcomes and are not able to compare outcomes across client groups, service
          strategies or over time. Nor do they report outcomes to the grantee or other funders.

Majority of sampled Title I grantees have concerns regarding outcome measures

          Most of the Title I grantees we visited expressed concerns regarding outcome measure
          requirements. The primary area of concern cited is the lack of financial resources and the
          administrative spending cap. Other concerns include: the burden of additional reporting
          requirements on sub-grantees; a lack of sub-grantee and planning council expertise in
          collection, analysis and use of outcome measures; and the difficulty of isolating the
          influence of Ryan White services on client outcomes. A couple of grantees also expressed
          a hesitancy to advance outcome measurement efforts in the absence of more specific
          guidance from HRSA out of concern that local efforts may conflict with future
          requirements. All of the Title I grantees visited said that they would like more guidance
          from HRSA on how to proceed with establishing and collecting outcome measures.



Ryan White Evaluation Systems: Title I            13                                    OEI-05-98-00392
The majority of Title I grantees visited assess the needs of
sub-populations in HIV/AIDS care but do not solicit needs
information from those outside of HIV/AIDS care
          The grantees collect information on service and sub-population needs through annual or
          bi-annual comprehensive needs assessments or targeted assessments of client populations
          and service categories. All of the grantees use both qualitative and quantitative data
          sources in their needs assessment work, including public health data, consumer and
          provider surveys, focus groups, public forums and key informant interviews. Outside of
          the public health data, information on the needs of infected individuals not receiving
          HIV/AIDS care is usually not obtained.

          The majority of Title I grantees visited match the demographics of HIV cases to
          demographic data on the clients receiving Title I services to determine unmet need. These
          data matches do not provide information on the barriers individuals face to care or the
          unique service needs they may have beyond those implied through co-morbidity data.
          Furthermore, in the three EMAs visited which do not have unduplicated client counts, the
          service utilization data most likely count individual clients more than once, inflating the
          numbers of persons appearing to receive care. Hence, a higher proportion of the
          HIV/AIDS population is considered receiving care than do in reality.

          Only a few of the grantees have gone beyond data matches to obtain information on the
          needs of persons who are not in HIV/AIDS care. One planning council tried to solicit this
          information by sending trained peer outreach workers to homeless shelters, without much
          success. Two other councils were more successful in obtaining information from persons
          not in HIV/AIDS care, one through street outreach and the State substance abuse
          program, and the other through focus groups of current and former prison inmates.


  Assessing Unmet Need in New York City: The CHAIN Study

  Since 1995, the New York City planning council has contracted with the Columbia University
  School of Public Health to conduct a longitudinal study of persons living with HIV/AIDS
  (PLWH/A). Through the Community Health Advisory Information Network (CHAIN) study,
  the planning council collects data on a sample of 700 PLWHA, systematically drawn from
  over 40 agencies in New York City, including agencies which receive Ryan White funding and
  those which do not. The sample includes infected persons who are un-connected to care. The
  CHAIN study collects information on client demographics, risk factors, family and social
  supports, barriers to care, environmental impacts and client outcomes. Through the CHAIN
  study, the council has identified unmet needs of persons in and out of care.




Ryan White Evaluation Systems: Title I            14                                     OEI-05-98-00392
                                RECOMMENDATIONS


The HRSA should promote the development of
Metropolitan-wide data systems to further improve the
program management activities of the sub-grantees
          Building on the client-level data demonstration projects underway,1 HRSA should provide
          grantees with technical assistance to facilitate the development of eligible metropolitan
          area-wide data systems. The sophistication and use of current EMA data systems vary
          widely by grantee. The HRSA should aid grantee efforts to build or improve unified data
          systems by disseminating a variety of technical information including information on model
          systems, effective system development strategies and specific elements to include to
          maximize benefits. This information should incorporate the lessons learned through the
          client-level data demonstration projects.

          Sub-grantee access to client-level data eliminates inefficient intake duplication and
          facilitates service coordination by informing providers of a client’s existing referrals and
          services received. Confidentiality concerns can be overcome using staff confidentiality
          agreements and unique identification numbers, rather than client name, to track clients.
          Sub-grantees can also use EMA-wide data systems to generate routine program and fiscal
          reports, reducing the time and resources needed by sub-grantees for reporting.

          In addition, sub-grantees can use the systems to track and report outcomes. One concern
          we heard from several grantees regarding outcome measurement is that they do not want
          to increase the reporting burden on the sub-grantees. If outcome fields are integrated into
          the EMA’s data systems as they are built, sub-grantees can track, aggregate and report
          client-level outcome measures through the existing system. Toward this end, HRSA is
          developing new software for the Annual Administrative Report (AAR) that will include a
          voluntary module on health-related client-level information.

          The development of client-level data systems requires a substantial financial investment.
          Based on the client-level data demonstration projects, HRSA estimates that it costs
          between $100,000 and $500,000 in start-up costs for each grantee to build a client level
          data system and between $50,000 and $335,000/year for each grantee to maintain the


          1	
                     Under the client level data demonstration project, four EMAs and three States have been
                     collecting and analyzing client-level data since 1994. Collected data includes client
                     characteristics, health indicators and services received. The HRSA plans to expand the client
                     level data set in 1999.


Ryan White Evaluation Systems: Title I                     15                                           OEI-05-98-00392
          system. Currently, grantees are restricted in the amount of funds they can invest in
          infrastructure by an administrative cap and by competing demands to fund services.

          Recognizing the current limitations on funds available for data collection and evaluation in
          the Ryan White CARE Act, HRSA should work in partnership with the Department to
          secure funds to facilitate the development of needed infrastructure in the CARE Act
          program.

          There are several potential sources of funds which could be used, either alone or in
          combination, to assist grantees in building client-level data systems including: 1) the one
          percent set-aside of program funds reserved for evaluation of programs authorized under
          the Public Health Service Act; 2) an appropriation specifically designated for data system
          development, similar to the funding allocated for such development within the child
          support enforcement program; and 3) a designation of funds for evaluation of the Ryan
          White programs included in the CARE Act’s FY’ 2000 re-authorization, carved outside of
          the administrative spending cap.

          Grantees could build on an initial infusion of funds, received through one or more of the
          above means, to streamline their tracking and reporting systems, potentially reducing their
          administrative costs over the long term. A reduction in administrative costs achieved
          through more efficient tracking and reporting processes could free up funds to support the
          improved data collection systems in the future.

          As HIV/AIDS has moved from an emergency epidemic to a chronic epidemic, it is critical
          for service providers to move from a crisis mode of operations to more long-term capacity
          building. Data systems are a vital ingredient for HIV/AIDS service agencies to improve
          the efficiency and effectiveness with which they provide their services, track their
          outcomes and inform their funding sources of their activities and results. Promoting the
          development of these systems is one practical step the administration can take in its
          initiative to strengthen the capacity of small, community-based organizations to serve the
          emerging HIV/AIDS population. Agencies with the most skill in serving the needs of
          disenfranchised populations often lack the resources for necessary infrastructure.

          In their data systems promotion and technical assistance efforts, the HRSA should urge
          Title I grantees to work with the other grantees in their State to develop a shared system
          so as to reduce multiple system requirements on sub-grantees receiving funding through
          more than one Ryan White Title. Recent HRSA efforts to develop a cross-Title AAR
          should facilitate the development of shared data systems.

          In addition, HRSA should encourage the CARE Act grantees to reach out to other public
          health programs serving persons with HIV/AIDS in their State to share services data. The
          1998 inter-agency agreement between HRSA, HCFA and CDC to promote the
          development of integrated public health information systems and the inter-departmental
          activities supporting this agreement are intended to foster such collaborations.

Ryan White Evaluation Systems: Title I             16                                     OEI-05-98-00392
The HRSA should implement a multi-year outcomes initiative
including grantee requirements and technical assistance
          The HRSA should build upon their efforts to promote grantee outcome measurement by
          establishing a multi-year implementation plan. Outcome measurement should start on the
          sub-grantee level and lead through subsequent steps to grantee analysis of client outcomes
          across the EMA. Outcome measurement would foster program improvements and greater
          accountability for expenditures and highlight the value of Ryan White funds.

          Here is one option of how HRSA could proceed:

          <	        In stage one, HRSA could develop one or more core outcomes for each service
                    category and require Title I grantees to develop three additional outcomes for each
                    service category in collaboration with Title II Consortia where they are co-located.
                    The core outcomes HRSA requires the grantees to measure should be aligned with
                    HRSA’s performance goals outlined in their annual performance plan.
          <	        In stage two, HRSA could require grantees to collect the established outcome
                    measures from the providers on a quarterly basis. Outcome measures should
                    eventually be reported as client-level data in preparation for stage three.
          <	        In stage three, HRSA could require the grantees to analyze the reported outcome
                    measures across services and report EMA-wide outcomes to HRSA annually.

          In establishing the core outcomes, HRSA should place a greater emphasis on primary
          health care outcomes since the ultimate goal of the Ryan White CARE Act is improved
          health status. However, at least one core outcome should be developed for each support
          service category. The outcomes for the support services should reflect the contribution
          the support services make to improved health status such as facilitating access to primary
          care or creating conditions conducive to following and benefitting from a structured health
          care regimen. Measuring these incremental outcomes would provide valuable information
          on the contribution of these services to health outcomes. This information could be used
          for accountability and program improvement purposes. Confidentiality concerns can be
          overcome using staff confidentiality agreements and unique identification numbers, rather
          than client name, to track clients.

          The outcome measurement initiative can serve as a means for HRSA to further promote
          continuous quality improvement (CQI) efforts. Through CQI, information on the
          effectiveness and quality of program delivery is fed back to program managers on a
          continuous basis, serving as a tool for managers to improve program delivery. While
          quality assurance and process indicators are used to gauge the quality of services
          delivered, outcome measures can be used to gauge service effectiveness. Service
          providers could use outcome measures along with quality of care indicators to improve
          their performance through program alterations and further self-evaluation under CQI.
          As the Ryan White CARE Act faces its second decade of providing care to persons

Ryan White Evaluation Systems: Title I                17                                     OEI-05-98-00392
          infected with HIV/AIDS, it is time to ensure that the grantees have the capacity to
          evaluate the outcomes of the services they deliver. Outcome evaluation as a CQI tool is
          vital to strengthening the effectiveness of the services delivered and the efficiency of the
          funds expended to provide the services. This basic need for appropriate funding should be
          addressed in the re-authorization of the CARE Act in FY 2000.

          The HRSA should provide the grantees with technical assistance to implement the core
          outcome measures and to develop and implement their own additional outcome measures
          within a CQI framework. The technical assistance could emphasize soliciting provider
          input in the development of the additional outcomes, using the United Way approach.

          The United Way approach to outcome measurement emphasizes using outcome measures
          for program improvement purposes. To this end, the United Way emphasizes soliciting
          provider input in the development of outcome measures to make sure that outcome
          measures reflect program goals. The United Way also stresses the importance of
          considering the data resources already available to the providers when developing
          outcome measures so as not to impose too much additional administrative or cost burden.

          The United Way’s approach recognizes the limited capacity of health and human service
          providers to engage in rigorous outcome evaluation. Hence, the United Way model
          emphasizes contribution rather than attribution. Using outcome measures, providers can
          determine if clients achieve an expected result after receiving their service intervention.
          While the provider is not able to scientifically prove that the result is due solely to their
          intervention, they can see whether their service is contributing to positive outcomes on a
          regular basis.

          The HRSA should urge Title I grantees to work with co-located Title II consortia in
          establishing the outcome measures sub-grantees will be required to measure, so as to
          avoid imposing a greater measurement burden on sub-grantees funded under both Titles.
          The HRSA should also urge the grantees to require sub-grantees to report outcome
          measures as client-level and aggregate data. Grantees will need client-level outcome data
          in order to analyze client outcomes across the EMA. The HRSA should urge the grantees
          to consider this need in the creation or redesign of unified data systems.

          In recent years, HRSA’s application guidance to Title I grantees has stressed the
          importance of documenting outcomes and has asked grantees to include outcome data in
          their applications. All of our respondents have received the message from HRSA that
          outcome measures are important and that HRSA expects them to move ahead in this area.
          However, respondents in the 12 EMAs we visited stated that they would like more
          specificity from HRSA on what outcomes they are expected to measure and on HRSA’s
          implementation plans.

          Likewise, in response to a July 1998 survey sent out by HRSA’s technical assistance
          contractor, 81 percent of the 37 responding EMAs indicated that “clear written guidance

Ryan White Evaluation Systems: Title I              18                                      OEI-05-98-00392
          from the HIV/AIDS Bureau on outcome evaluation expectations or requirements” would
          be among the “most useful” types of technical assistance they could receive. Seventy-
          eight percent of the responding EMAs indicated that “lists of suggested outcome
          indicators for other (non-primary care) service categories” would be among the most
          useful assistance.

The HRSA should provide technical assistance to improve
the ability of grantees to estimate the needs of infected
persons not in HIV/AIDS care
          In the FY 1999 Application Guidance, HRSA emphasizes the importance of obtaining
          information on unmet need, acknowledges the difficulty of obtaining this information and
          pledges to work with EMAs to address this area in the future. The HRSA should build on
          this effort by requiring the grantees to solicit needs information from persons not in
          HIV/AIDS care and by providing the grantees with technical assistance on how to do this.

          The public health data grantees are currently required to use to estimate unmet need
          provides useful information on the needs of infected persons. However, the input of
          persons outside of the care system would add a richness of understanding regarding their
          needs and the barriers to service they encounter.

          Grantee solicitation of the input of persons un-connected to care would assist the grantees
          in complying with the re-authorized CARE Act’s directive to prioritize a portion of funds
          for emerging populations. Grantee solicitation of this input would also contribute to the
          Department’s efforts to address the greater burden of HIV/AIDS on racial and ethnic
          minorities.

          In their attempt to fulfill the CARE Act’s requirement to prioritize funds for emerging
          populations, HRSA should urge the planning councils to strive to reach persons
          unconnected to HIV/AIDS care, in addition to efforts to reach persons who
          demographically reflect the emerging populations. The HRSA should urge the councils to
          recognize the complexity and disproportionate costs which may be involved in serving
          persons previously unconnected to HIV/AIDS care. Persons infected by HIV/AIDS are
          increasingly individuals who are traditionally not connected to the health care system for
          reasons such as poverty and historic mistrust of institutional health care. A focused
          outreach and planning strategy is required to address their needs.

          The HRSA’s technical assistance materials on conducting needs assessments urge grantees
          to solicit information from persons not in HIV/AIDS care. Although the materials suggest
          avenues for soliciting this information, they do not include any information on how to use
          these means. Several grantees indicated that they would like more guidance on how to
          proceed in this area.


Ryan White Evaluation Systems: Title I            19                                     OEI-05-98-00392
          The HRSA could provide the grantees with a technical assistance document devoted to
          soliciting needs information from PLWH/A who are not in HIV/AIDS care, providing
          steps for conducting outreach and examples of effective strategies. The HRSA could
          highlight outreach strategies which have been used by other Ryan White grantees, CDC
          HIV prevention community planning groups and service providers in other arenas.
          Particular attention should also be paid to reaching persons who receive HIV/AIDS
          services but may not be receiving primary health care services.




Ryan White Evaluation Systems: Title I          20                                   OEI-05-98-00392
                                AGENCY COMMENTS

          The HRSA provided comments to the draft report. While HRSA concurred with the
          report’s findings and recommendations, they offered suggestions for clarifying the report
          and making other technical changes. Where appropriate, we changed the report to reflect
          their comments. The complete text of HRSA’s comments can be found in Appendix A.

          The HRSA pointed out several ongoing and planned activities in response to the report
          recommendation to promote the development of metropolitan-wide data systems. We
          commend their efforts to assist the grantees in the development of these data systems.
          The revisions to the Annual Administrative Report (AAR) to allow for cross-Title
          reporting and the addition of the voluntary module on health-related client-level
          information in the AAR software will provide the grantees with added flexibility to track
          client-level information across CARE Act Titles. We also commend HRSA on their
          plans to host a FY 1999 meeting of grantees with expertise in client-level reporting to
          launch a peer-based technical assistance effort.

          In response to our recommendation that HRSA provide technical assistance and financial
          resources to support the development of EMA-wide data systems, HRSA cautioned that it
          would “be unreasonable to expect technical assistance and financial resources from
          HRSA’s HIV/AIDS Bureau to be sufficient to fully develop and implement those systems
          in an appropriate manner.” The HRSA has made a great start in the provision of technical
          assistance through building expertise via the seven client-level data demonstration sites
          and the planned FY 1999 meeting to launch the peer-based technical assistance effort.
          These endeavors will facilitate an exchange of information on model systems and lessons
          learned, providing a knowledge base to support local system development efforts. We
          urge HRSA to continue down this path.

          We do not expect HRSA to provide all of the financial resources necessary to fully
          develop and implement metropolitan-wide data systems. We recommend that HRSA, in
          partnership with the Department, secure funds to assist in the development of such data
          systems. The FY 2000 re-authorization of the CARE Act provides an optimal opportunity
          to consider funding for infrastructure development vital to ensuring efficient and effective
          service delivery in the future. The grantees could build upon an initial infusion of funds to
          streamline their systems, potentially reducing their administrative costs and freeing up
          funds to maintain their systems over time.

          Furthermore, we agree with HRSA that the participation of non-Ryan White public health
          agencies is necessary to provide additional administrative resources, skills and data to
          develop client-level data systems which capture the full array of services used by HIV-
          infected persons. To this end, we recommend that HRSA build upon the HRSA-HCFA-
          CDC inter-agency data sharing agreement to promote the development of integrated

Ryan White Evaluation Systems: Title I             21                                     OEI-05-98-00392
          public health data systems by encouraging Ryan White CARE Act grantees to work with
          the other public health programs in their State serving persons with HIV/AIDS.

          The HRSA briefly described a few activities planned or underway in support of our
          recommendation to implement a multi-year outcomes initiative. We commend HRSA on
          these activities and plans. Despite their efforts in this area, HRSA expressed a few
          concerns regarding their ability to carry out this recommendation: 1) limitations on
          accessibility and compatibility of data sets, 2) restrictions on administrative costs
          impacting a Grantee’s ability to use complex data sets for outcome studies, and
          3) confidentiality concerns.

          These limitations are to be expected in a large endeavor but are not insurmountable. For
          this reason we recommend an outcomes approach designed with feasibility as a
          cornerstone. We do not expect the outcomes initiative to lead to rigorous scientific
          evaluations conducted by every grantee. The HRSA is funding such projects on a limited
          basis where the capacity exists. It is not feasible, nor is it necessary, for every grantee to
          participate in this work. What is feasible and necessary for every grantee to undertake is
          an assessment of the effectiveness of the services they fund. By examining the
          contributions made by the services to client outcomes, the grantees can assess, in general
          terms, the effectiveness of these services. We highlight the United Way approach which
          emphasizes contribution, rather than attribution, for this reason. The United Way
          approach is designed for service providers, like those in the Ryan White program, who
          face data and cost limitations.

          Although we expect the costs involved to be minimized by emphasizing the use of data
          resources already available to the providers, many grantees may need additional financial
          resources to develop an outcomes system, depending upon the size of their grant and
          competing demands on limited administrative funds. The metropolitan-wide client-level
          data systems discussed in our first recommendation, would develop a sound infrastructure
          upon which to build the outcome measures initiative. We recommend that HRSA work
          with the Department to secure funds for these initiatives critical to the future of the Ryan
          White CARE Act programs.

          The HRSA’s third area of concern - assuring client confidentiality, can be addressed by
          using unique identifiers and staff confidentiality agreements. Grantees collecting client-
          level information have used these measures successfully to address confidentiality
          concerns.

          We commend HRSA’s efforts to address our recommendation to improve the ability of
          grantees to estimate the needs of infected persons not in HIV/AIDS care. We urge HRSA
          to disseminate technical assistance information to grantees in this area as soon as possible,
          as the population of infected persons outside of care continues to grow.




Ryan White Evaluation Systems: Title I              22                                      OEI-05-98-00392
                                                             APPENDIX A


                                         Agency Comments 





Ryan White Evaluation Systems: Title I          23                 OEI-05-98-00392
                                                             APPENDIX A


                                         Agency Comments 





Ryan White Evaluation Systems: Title I          24                 OEI-05-98-00392
                                                             APPENDIX A


                                         Agency Comments 





Ryan White Evaluation Systems: Title I          25                 OEI-05-98-00392
                                                             APPENDIX A


                                         Agency Comments 





Ryan White Evaluation Systems: Title I          26                 OEI-05-98-00392
                                                             APPENDIX A


                                         Agency Comments 





Ryan White Evaluation Systems: Title I          27                 OEI-05-98-00392
                                                             APPENDIX A


                                         Agency Comments 





Ryan White Evaluation Systems: Title I          28                 OEI-05-98-00392
                                                             APPENDIX A


                                         Agency Comments 





Ryan White Evaluation Systems: Title I          29                 OEI-05-98-00392
                                                             APPENDIX A


                                         Agency Comments 





Ryan White Evaluation Systems: Title I          30                 OEI-05-98-00392
                                                                 APPENDIX B


                    Related Office of Inspector General Reports


The Ryan White CARE Act: Local Implementation Issues (OEI-05-93-00336)

The Ryan White CARE Act: Examples of Local Coordination (OEI-05-93-00335)

The Ryan White CARE Act: Special Projects of National Significance (OEI-05-93-00332)

The Ryan White CARE Act: Technical Report of 1992 Expenditures (OEI-05-93-00334)

The Ryan White CARE Act: Funding Formulas (OEI-05-93-00330)

Medicaid Managed Care and HIV/AIDS (OEI-05-97-00210)

Audit of State AIDS Drug Assistance Programs’ Use of Drug Price Discounts (A-01-97-01501)

Review of Maximizing Drug Discounts Under the Missouri Ryan White Program
(A-01-97-00926)

Audit of the Ryan White Comprehensive AIDS Resource Emergency Act of 1990, Title II,
Administered by the Health Resources and Services Administration (A-01-97-01500)

Audit of Eligibility Under Title I of the Ryan White Comprehensive AIDS Resource Emergency
Act of 1990, New York Metropolitan Area (A-02-95-02517)

Audit of the Ryan White Comprehensive AIDS Resource Emergency Act of 1990, Title II,
Administered by the State of Connecticut (A-01-96-01501)

Audit of the Ryan White Comprehensive AIDS Resource Emergency Act of 1990 in the Boston
Metropolitan Area for Fiscal Year 1994 (A-01-95-01504)




Ryan White Evaluation Systems: Title I      31                                   OEI-05-98-00392
